Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




    THE CHILDREN’S HEALTH
     INSURANCE PROGRAM


  States’ Application and Enrollment Processes:
      An Early Report From the Front Lines




                        JUNE GIBBS BROWN
                         Inspector General

                              MAY 1999
                            OEI-05-98-00310
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Region V prepared this report under the direction of William Moran, Regional Inspector
General and Natalie Coen, Deputy Regional Inspector General. Principal OEI staff included:

REGION                                               HEADQUARTERS

John Traczyk, Team Leader                            Wynethea Walker, Program Specialist

Nora Leibowitz, Project Leader

Rebecca Ogrodnick





   To obtain copies of this report, please call the Chicago Regional Office at (312) 353-4124.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                          EXECUTIVE                     SUMMARY


PURPOSE

          To identify promising practices, barriers and issues related to the application and
          enrollment procedures of the Children's Health Insurance Program (CHIP).


BACKGROUND

          It is estimated that approximately 12 million children in the United States are currently
          without health insurance. Many of these uninsured children are eligible for Medicaid but
          are not enrolled in the program. The Balanced Budget Act of 1997 created Title XXI of
          the Social Security Act, the Children’s Health Insurance Program. Title XXI provides $24
          billion over 5 years to develop health insurance programs for low-income children. States
          have the option to expand their existing Medicaid program, design a new children’s health
          insurance program or develop a program that combines these strategies.

          Studies have shown that applications and enrollment procedures may be a barrier to
          families applying for Medicaid. Consequently, the Health Care Financing Administration
          (HCFA) is encouraging States to streamline Title XXI applications and the application
          process.

          We conducted this study to identify promising approaches being used by States. We also
          sought to identify barriers and issues States are confronting in their implementation of
          CHIP programs. We hope that sharing the promising approaches and addressing
          emerging issues will be beneficial to both program administrators and potential program
          applicants.

          We collected blank application forms from 19 States that had CHIP programs in operation
          on or before July 1, 1998. We conducted on-site interviews with the State CHIP director
          or their designee, in seven States, concerning their CHIP application and enrollment
          procedures. Front-line workers, who assist families in completing CHIP applications,
          were also interviewed in these seven States. We held telephone discussions about CHIP
          applications and enrollment procedures with the remaining 12 program directors or their
          staff.




States’ Application and Enrollment Processes        1                                     OEI-05-98-00310
FINDINGS

Emerging Application Formats and Enrollment Practices

          Many States are experimenting with CHIP application and enrollment practices. They are
          finding that short applications are quicker and easier to complete, but may necessitate
          further contacts with State agencies. Longer applications can deter people from applying
          for benefits.

          States are weighing tradeoffs when they develop joint applications. The average joint
          Medicaid/CHIP application is longer than the average CHIP-only application. The three
          States that use a single application for medical and other benefit programs tend to have
          longer applications.

          To improve access to CHIP for children whose parents do not speak English, many States
          make applications available in Spanish and other languages. We found that the average
          reading level of the CHIP applications we analyzed was 10th grade. The average CHIP
          applicant may find it difficult to comprehend many application questions.

          Most States make applications available at multiple sites and nearly all use toll-free
          telephone numbers to distribute CHIP applications and to provide program information.
          Most sampled States no longer require a face-to-face interview for CHIP or Medicaid and
          most now accept mail-in applications.

          Some States mentioned streamlined procedures and early effective dates of coverage as
          negating the necessity for presumptive eligibility. Other States mentioned administrative
          difficulties and other problems as reasons for not adopting presumptive eligibility.

Barriers to Enrollment: Citizenship Dilemmas

          State CHIP administrators stated that noncitizens are reluctant to apply for CHIP. People
          involved in the CHIP application process stated that fear of being detected makes illegal
          aliens reluctant to complete an application even for their children who meet citizenship
          requirements. Qualified aliens are also reluctant to complete an application for their
          children, fearing that use of a public benefit will adversely affect their applications for
          citizenship.

Multiple Program Rules

          Medicaid, CHIP and other public benefit programs differ in their rules regarding issues
          such as verification of alien status, child support enforcement and verification of income.
          Different policies also exist for determining: household/family composition, countable
          income, and disclosure of information. These differences hinder the development of joint

States’ Application and Enrollment Processes       2                                     OEI-05-98-00310
          applications, affect application size and complicate verification procedures. States find
          themselves having to apply different rules for different programs, leaving them uncertain
          as to which program policies to apply in each case. States have concerns that their
          decisions regarding definitions of income and household/family composition and
          verification processes will affect their quality control error rate.


RECOMMENDATIONS

Readability of Application Forms

          We recommend that HCFA work with States to improve the readability of CHIP
          applications. The high reading level of some applications can dissuade prospective
          applicants from applying. Language complexity may lead applicants to incorrectly fill out
          forms, which may have an impact on whether applications for health care coverage are
          accepted or denied. Reducing language complexity and reading level on CHIP
          applications can improve access to services.

Simplification Efforts

          We recommend that HCFA continue to encourage States to simplify their application and
          enrollment processes for CHIP and Medicaid. Many practices show encouraging results.
          However, it is too early to determine the effectiveness of these practices.

          We encourage HCFA to continue to support State efforts to:

                    <         Reduce application length;

                    <         Use joint Medicaid/CHIP applications;

                    <         Use multi-program applications;

                    <         Print applications in Spanish or other languages;

                    <         Distribute applications at multiple sites;

                    <         Utilize toll-free telephone lines to provide information;

                    <         Provide assistance with the application process;

                    <         Increase the use of outstation and application collection sites;

                    <         Utilize mail-in applications and post-paid envelopes;

                    <         Eliminate face-to-face interviews.


          We also encourage HCFA to continue helping States investigate the following practices:

                    <         Contracting with enrollment brokers;
                    <         Eliminating some verification requirements.

          Under Medicaid, eligibility is effective with the date of application or, at State option, the

States’ Application and Enrollment Processes             3                                        OEI-05-98-00310
          first day of the Month of application. There is no requirement in the CHIP legislation that
          governs the effective date of CHIP eligibility. We recommend that HCFA encourage
          States with separated CHIP programs to adopt CHIP eligibility policies that parallel their
          Medicaid policies. We also recommend that HCFA encourage States to presume
          eligibility of all children effective with the date of application.

Citizenship Issues

          We recommend that HCFA work with INS to encourage INS’s development of clear
          guidance and policy statements on how applications for CHIP and Medicaid will impact
          noncitizens. Qualified aliens should know whether using the CHIP benefit will affect their
          citizenship. Illegal aliens should know if the information they provide on CHIP
          applications for their citizen children will be used to enforce immigration laws.

Uniformity of Program Requirements

          We recommend that an interagency task force be formed to address conflicting public
          benefit application requirements. We recommend that this interagency workgroup
          develop uniform policies for verifying income, using the Income Eligibility Verification
          System, determining household/family composition, defining countable income, counting
          child support and disclosing information.




States’ Application and Enrollment Processes       4                                     OEI-05-98-00310
                          TABLE                    OF             CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

FINDINGS
      Emerging Application Formats and Enrollment Practices . . . . . . . . . . . . . . . . . . . 9
           Application brevity
           Joint applications
           Multi-program applications
           Spanish and other languages
           Readability
           Applications at multiple sites
           Toll-free telephone lines
           Application assistance
           Outstationing and collection sites
           Mail-in applications, post-paid envelopes
           Elimination of face-to-face interviews
           Presumptive eligibility
           Use of enrollment contractors
           Elimination of some verification requirements
           Denial rates

          Citizenship Dilemmas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
                 The “illegal alien” dilemma
                 The “public charge” dilemma

          Multiple Program Rules . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

APPENDICES
    Appendix A: Health Care Financing Administration Comments . . . . . . . . . . . . 29

          Appendix B: Health Resources and Services Administration Comments . . . . . . 34

          Appendix C: Assistant Secretary for Management and Budget Comments . . . . . 35



States’ Application and Enrollment Processes                  5                                               OEI-05-98-00310
                                       INTRODUCTION


PURPOSE

          To identify promising practices, barriers and issues related to the application and
          enrollment procedures of the Children's Health Insurance Program (CHIP).


BACKGROUND

          The Agency for Health Care Policy and Research estimates that approximately 12 million
          children have no health insurance. As many as 4.7 million uninsured children are eligible
          for Medicaid but are not enrolled in the program. More than 90 percent of these children
          are in working families.

          The Balanced Budget Act of 1997 (Public Law 105-33) created Title XXI of the Social
          Security Act, the Children’s Health Insurance Program (CHIP). The CHIP is a capped
          matching program which authorizes $24 billion over the next 5 years to establish and
          expand health insurance programs for low income, uninsured children. The CHIP
          program’s goal is to provide health insurance to children whose parents earn too much to
          qualify for Medicaid but not enough for private insurance. The program also seeks to
          cover uninsured children whose parents’ health insurance does not cover their dependents.

          The program allows States to expand their current Medicaid program, design a new
          children’s health insurance program or develop a program which combines these
          strategies. States that choose to expand the number of children eligible for Medicaid must
          follow existing Medicaid rules regarding family income, geography and residency. These
          “Medicaid expansion” programs must also offer the same benefit package their Medicaid
          recipients currently receive. States establishing separate CHIP programs may set their
          own eligibility standards within federally-established parameters and have more flexibility
          on the benefit package.

          Through Title XXI, States may cover children whose household/family incomes are higher
          than traditional Medicaid limits. Medicaid family income limits for children vary from
          State to State and can range from the Federal poverty level to 300 percent of poverty.
          Under Title XXI, States may choose to cover children whose family income is above the
          Medicaid threshold but less than 200 percent of poverty. States with Medicaid programs
          that currently cover children at or above 200 percent of poverty may raise their current
          eligibility standard as much as 50 percent.


States’ Application and Enrollment Processes        6                                     OEI-05-98-00310
          Under CHIP, States receive higher Federal matching dollars than they do for Medicaid.
          The CHIP legislation requires that States use their Federal money to cover uninsured
          children who are not covered by Medicaid or private insurance. States must screen all
          children applying for CHIP for Medicaid eligibility. Medicaid-eligible children identified
          during outreach must be enrolled in Medicaid rather than in a separate CHIP program. To
          prevent States from moving children from Medicaid to the new program, the law prohibits
          States from receiving an enhanced match if they tighten the Medicaid eligibility standards
          that existed before March 31, 1997.

          Identifying and enrolling children are challenges facing States implementing CHIP. Title
          XXI requires States to conduct outreach and enrollment activities. Outreach involves
          locating children who are eligible for health insurance and enrolling them in Medicaid or
          CHIP. The goal is to assure that all children who qualify for publicly-subsidized health
          insurance get enrolled in the appropriate program.

          Studies have shown that applications may be a barrier to families applying for Medicaid.
          Reducing the length and complexity of Medicaid and CHIP applications may improve the
          uptake rate for eligible children. Researchers, advocacy groups and the Health Care
          Financing Administration (HFCA) have encouraged States to shorten their applications
          and simplify enrollment processes.

          On January 23, 1998 and September 10, 1998, HCFA issued letters to the States
          encouraging them to reduce the length and complexity of Medicaid and CHIP
          applications. Another HCFA letter sent to the States on November 23, 1998 encourages
          States to develop joint applications, simplify application process and eliminate (or
          streamline) efforts to verify information on Medicaid and CHIP applications.


METHODOLOGY

          We collected CHIP application forms from 19 States. Most States have a single CHIP
          application form, but three States have multiple CHIP application forms. Overall, we
          collected and reviewed 41 different CHIP application forms provided by the 19 States in
          our sample. We analyzed the content of each application and the way questions are asked
          and how information is provided to applicants.

          We conducted site visits in seven States (AL, CA, CO, CT, FL, NJ, OK) that were
          enrolling children in a stand alone Title XXI program or a Medicaid expansion program.
          We discussed CHIP applications and enrollment procedures with State Medicaid and
          CHIP staff. Discussions were also held with front line workers, contractors and others
          involved with helping families apply for CHIP. We discussed application and enrollment
          procedures with the 12 remaining States (ID, IN, MA, MI, MO, NY, OH, OR, PA, RI,
          SC, TX) over the telephone.


States’ Application and Enrollment Processes       7                                    OEI-05-98-00310
          We asked respondents about their CHIP application and requested information as to how
          and where families could obtain an application. We also asked how applicants could get
          help in completing an application and how they can submit an application. We focused on
          the application process, including how eligibility for Title XIX (Medicaid) and Title XXI
          (CHIP) is determined, what verification the State requires, whether contractors are used
          for any portion of the process and how referrals between Title XIX and Title XXI occur.
          We also asked about presumptive eligibility and application denials.

          We conducted a readability analysis of randomly selected CHIP applications. For each of
          the applications selected, we randomly selected instructions and questions for readability
          analysis. Software was used to analyze reading grade level and vocabulary complexity
          using the Flesch-Kincaid formula. This test is the standard test used by the Department of
          Defense to determine the ease of reading. It determines the complexity and reading
          difficulty using a formula based on average sentence length and average number of
          syllables per word.

          The information presented in this report is for the period July through October 1998. It is
          a point-in-time description. Many States we interviewed for this study are in the process
          of making changes to applications and enrollment procedures. Several States in our
          sample had implemented the first phase of their program and were in the planning stage of
          their second phase when we talked with them. The findings are based on the programs at
          the time we spoke with the States involved, and may not reflect subsequent
          implementation of second or third phase Title XXI programs.

          We conducted our review in accordance with the Quality Standards for Inspections issued
          by the President’s Council on Integrity and Efficiency.




States’ Application and Enrollment Processes       8                                     OEI-05-98-00310
                                               FINDINGS


Emerging Application Formats and Enrollment Practices
         States are advised to make their CHIP applications uncomplicated and user-friendly.
         Researchers, advocates and HCFA have asked the States to develop simpler application
         forms and to improve enrollment processes for Medicaid and CHIP. In their January 23,
         1998 letter to State health officials, HCFA stated that “a key to successfully enrolling
         children . . . is a simple application and enrollment process.” In an effort to improve
         application and enrollment processes, HCFA has advised States to shorten CHIP and
         Medicaid applications, develop joint applications, simplify language and minimize
         verification requirements.

         With HCFA’s encouragement many States have developed shorter applications not only for
         CHIP but also for their Medicaid programs. The Center for Budget and Policy Priorities
         believes that shortened applications will facilitate enrollment. The model joint Medicaid-
         CHIP application developed by HCFA is four pages. It consists of two pages on which
         families enter information plus two pages of program explanations and descriptions of
         requirements. In the past, Medicaid applications were often long and complicated.

         The HCFA suggests making eligibility determination easier by eliminating asset tests and
         verification requirements that are not federally required. According to HCFA, States can
         accept an applicant’s responses on a Medicaid or CHIP application without verification.
         The HCFA also encourages States to eliminate face-to-face interviews, to allow mail-in
         applications and to streamline verification procedures.

         The HCFA has also encouraged States to use a combined application for their Medicaid
         and CHIP programs. The HCFA believes that joint Medicaid/CHIP applications would
         reduce State paperwork and simplify the process for families potentially eligible for CHIP
         and Medicaid. In a November, 1998 letter to State Health Officials, HCFA encouraged
         States to develop and use a joint application that could be used for CHIP, Medicaid and
         other public benefit programs such as food stamps, child care and cash assistance. The
         Center for Budget and Policy Priorities and the Children’s Defense Fund have praised
         several States for their streamlined application processes.

Application brevity

         Of the 41 applications in our sample, the average application length was five and a half
         pages. When declaration pages and informational pages are removed, the average number
         of pages families are asked to complete drops to just over three pages. Over half of the


States’ Application and Enrollment Processes       9                                    OEI-05-98-00310
         applications in our sample are four or fewer pages. More than 75 percent are six or fewer
         pages. One-fifth of all the applications studied were seven or more pages. The longest
         application was 28 pages.

         Application length, in itself, does not appear to be an accurate measure of application
         burden. Studies suggest that a short application may encourage more families to apply for
         Title XIX and Title XXI programs. Generally, application length is counted as the total of
         both the pages the family must complete and any pages of information, instructions and
         declarations attached to the “fill-in” pages. Some States include information, instructions
         and declarations in the application itself. Others print information and instructions on
         sheets not attached to the application. This may lead to unfair comparisons between State
         applications. A State that attaches two pages of instructions to two pages of fill-ins does
         not have a longer application than a State that prints the two sections on separate sheets.

         States make tradeoffs when developing applications. We examined an exceptionally long
         CHIP application. In addition to the actual application, the package given to potential
         applicants contains many pages of explanations, instructions, flow charts, cartoon
         descriptions of the process and other informational pages. The application, which is a joint
         CHIP/Medicaid form, contains more than 12 pages of instructions and explanations. Four
         pages of application questions help applicants estimate family income.

         Using this State’s application, a CHIP or Medicaid applicant would fill out 12 pages. This
         includes two pages of declarations and a checklist for required documentation.
         Respondents from this State indicated that the their application design was influenced by
         input from advocates and other groups. Staff at the State’s CHIP program said they
         included many advocate suggestions, which increased the application’s length. This State’s
         application illustrates the tradeoffs that States consider when deciding what information to
         include and what questions to ask in their CHIP/Medicaid applications.


                                               CHIP Application Length

    Application Type                    All Applications        CHIP-only     Joint Medicaid/CHIP
    Average Length                      5.5 pages               3.8 pages     7.6 pages
    Median Length                       4 pages                 4 pages       6 pages
    Mode                                4 pages                 4 pages       4 pages
    Shortest and longest                1 - 28 pages            1 - 8 pages   2 - 28 pages




States’ Application and Enrollment Processes               10                                OEI-05-98-00310
Joint applications

         Two States with CHIP-only programs use a separate CHIP application. Nine States with
         Medicaid expansions or combination CHIP/Medicaid programs use a single application.
         Eight States with CHIP-only programs use a joint CHIP/Medicaid application.

         Using a joint Medicaid/CHIP application can simplify the application process for some
         families. Families only have to complete one application and do not have to determine
         under which program their children may be eligible. Joint applications facilitate the
         enrollment of CHIP applicants in Medicaid if they qualify for that program. With both
         programs on one application, States can ensure that they enroll children who are Medicaid
         eligible in Medicaid and children eligible for CHIP are enrolled in CHIP.

         Joint applications help reduce the stigma associated with welfare by making program
         differences invisible to families. This may be especially important for families who do not
         want Medicaid due to its association with welfare. Many State CHIP directors provided
         anecdotal information about families refusing Medicaid but willing to accept, and in some
         cases willing to pay for CHIP.

         Joint applications are often longer than CHIP-only applications. Joint Medicaid/CHIP
         applications have to include questions a State requires for either program. The average
         length of a combined application is longer than that of an average CHIP-only application
         (7.6 pages versus 3.8 pages). Some State laws may prescribe information to be collected or
         processes for Medicaid applicants that are not required for their separate CHIP program.
         Joint applications may require families of CHIP-eligible children to go through a more
         invasive process, such as face-to-face interviews, added questions and more extensive
         verification of information provided.

Multi-program applications

         Of the 19 States in our study, three use a single application form to determine eligibility for
         Medicaid/CHIP and at least one other public benefit program. One State combines its
         Medicaid application with applications for cash assistance and food stamps. A second State
         uses a single application for cash assistance, food stamps and child care subsidies. The
         third uses a combined application for its medical programs and the Women, Infants and
         Children (WIC) program.

         A single application for health care and other programs can be a good way to ensure that
         families have access to all the programs for which they qualify. When a family fills out a
         joint application, a State can determine eligibility for several State and Federal programs.
         Some families may not want to fill out separate applications and interact with their State’s
         social services agency multiple times. A multi-program application may increase access to
         both health programs and other programs such as food stamps and subsidized child care for
         these families.


States’ Application and Enrollment Processes        11                                     OEI-05-98-00310
         The downside of a multi-program application is that different programs have different
         requirements. The issues surrounding joint Medicaid/CHIP applications are intensified
         with a multi-program application. States that use multi-program applications indicated that
         persons applying for subsidized health insurance often have face-to-face interviews because
         they are required for other programs. One State noted that much of its documentation and
         verification requirements are the result of the food stamps program requirements.

         As an alternative to multi-program applications, one State’s joint CHIP/Medicaid
         application includes check boxes. Applicants can indicate their interest in receiving
         information about other State and Federal programs by checking the appropriate box.

Spanish and other languages

         Half the States running CHIP programs as of July 1, 1998 print their applications in both
         English and Spanish. Most of these States print English and Spanish versions separately.
         Two States print a single version of the application, with all instructions and questions in
         both languages. Five States make applications available in several languages. One State
         distributes instructions and applications in 10 different languages. Three States print
         applications only in English.

         All States offer telephone or in-person assistance to help non-English speaking persons
         apply for CHIP. Some States staff their toll-free help lines with bilingual staff. In addition,
         all States utilize telephone-based interpreter services.

Readability

         Application complexity affects a reader’s ability to successfully and accurately complete a
         CHIP application without assistance. High reading level scores and complex vocabulary
         may hinder some people’s ability to complete a CHIP application. Subjective analysis of a
         text’s reading level is often inaccurate. Teachers and others with higher than average
         reading levels tend to underestimate the difficulty of a given text by up to 8 years.

         Using the Flesch-Kincaid Formula, we analyzed randomly selected application questions
         and instructions from a sample of CHIP applications. We found that most CHIP
         applications required a 10th grade education or higher to comprehend CHIP questions and
         instructions. The grade level of the questions and instructions we analyzed ranged from
         4.86 to 14.79.

         Contributing to the difficult reading level of CHIP applications is the complexity of the
         sentences and vocabulary used in questions and instructions. Complex sentences and
         vocabulary make comprehension more difficult for applicants. Compared with a
         Hemingway short story with a vocabulary complexity score of 5, the CHIP applications we
         examined had vocabulary complexity scores ranging from a low of 2 to a high of 71.


States’ Application and Enrollment Processes        12                                     OEI-05-98-00310
         States have shown concern that applications are comprehensible to families. One State
         indicated that they changed a CHIP application question about the name of the person
         filling out the form. What once read “applicant’s name” now reads “your name.” This
         change avoids confusion caused when parents or others filling out a CHIP application
         entered a child’s name in the slot meant for their own name. Other States have also
         responded to problems with individual questions or instructions, but none indicated that
         they have performed comprehensive application overhauls based on readability analysis.

Applications at multiple sites

         Most of the States in our study made applications available at multiple locations. These
         locations included State and local government offices, welfare and Medicaid offices, State
         and local health departments, county or city run health clinics and WIC clinics. In addition,
         many States distribute applications through community groups, churches, nonprofit
         organizations, private health care providers, Federally Qualified Health Centers (FQHCs),
         child care centers, Head Start centers and schools. Most States have made efforts to
         distribute applications at multiple sites. Some States have made noteworthy efforts to
         distribute CHIP application by offering hundreds of application pick-up sites throughout
         their States. See Table on the next page for a compilation of CHIP application sites
         mentioned by State respondents.1

         Many States are making efforts to solicit the cooperation of schools in identifying
         potentially eligible children. Schools in many States are asked to distribute information and
         applications to students. Eight States specifically mentioned that applications are available
         at schools and education departments. Many States noted that Department of Education
         cooperation was good. However, a couple of States indicated that local school districts
         were not always willing to distribute information and applications. One State felt that the
         Department of Education lacks a clear mandate to cooperate in this endeavor.

Toll-free telephone lines

         Most States run a statewide, toll-free telephone line. People can call to these toll-free
         numbers to get program information and applications. Only three States do not make
         applications available via Statewide toll-free telephone lines. Two of these States contract
         with individual managed care organizations (MCOs) to run customer service lines as part
         of their programs. The contracted MCOs in these States provide information about CHIP
         and mail out applications to callers. The other State’s toll-free line can be used to get
         information about the program and referrals to the appropriate State agency.




          1
        Figure 1 is a list of sites at which people can obtain CHIP applications. This list may not be
comprehensive. It reflects only the sites mentioned by our State respondents.

States’ Application and Enrollment Processes            13                                           OEI-05-98-00310
                  Locations used by States to distribute CHIP applications

  Health Care Providers, including:
        <      hospitals
        <      State, city and county health departments
        <      federally qualified health centers
        <      county health clinics
        <      community health centers
        <      clinics run by the Women, Infants and Children program
        <      dentist offices
        <      Physicians and other health care provider offices

  Government offices, including:
        <     Medicaid offices
        <     welfare offices
        <     regional offices of the State government
        <     unemployment offices

  Schools, including:
        <       State Department of Education offices
        <       local school district offices
        <       schools

  Community based organizations and not-for-profit agencies, including:
      <      churches
      <      libraries
      <      private social service agencies
      <      advocacy groups
      <      boys and girls clubs
      <      domestic violence shelters
      <      food banks

  Other organizations, agencies and businesses, including:
        <      managed care organizations
        <      contractors and enrollment brokers
        <      pharmacies
        <      child care centers
        <      Head Start centers
        <      legal services offices
        <      tax preparers’ offices
        <      insurance agencies
        <      grocery stores


States’ Application and Enrollment Processes   14                            OEI-05-98-00310
         Application assistance

         Most States offer assistance with application-related questions by telephone. In several
         States, the staff answer questions and explain what documentation should be sent in. In
         some States, staff on the toll-free line will help families fill out an application. The
         completed application is then sent to the family for a signature and needed documents.

         Several States train groups and individuals not employed by the State to help families with
         the application process. In one State, organizations sponsor individuals to attend a day-
         long training on the application. These individuals are then approved to assist families with
         the application on behalf of their organization. In another State, more than 300 interested
         organizations have signed agreements with the State regarding training and their role in the
         initial processing of the applications.

         State Medicaid or CHIP web sites describe their programs and explain how to get an
         application. Several States allow families to print the application from the web site, fill it
         out and mail it in.

Outstationing and collection sites

         About one quarter of the States in our study relies, at least in part, on outstationed workers
         to collect applications. Many States allow families to return applications to places other
         than welfare or Medicaid offices. These sites include health departments, Federally
         Qualified Health Centers, clinics and other agencies that volunteer to help families with the
         process. Several States report that they increased the number of application drop-off sites
         in order to help families avoid the welfare or social services office. In some States,
         applications dropped off at an outstation or volunteer agency site will be forwarded to the
         processing organization. In one State, outreach sites (including medical providers) can fax
         in families’ applications for them, and then send the paper copy by mail later. They hope
         that eliminating the stigma of welfare and making the process friendlier will encourage
         more families to apply.

         Rather than increase the number of outstation sites, several States collect CHIP
         applications predominantly or exclusively through a mail in process. Many of these States
         distribute post-paid envelopes with their applications and encourage families with questions
         to call the toll-free help line.

Mail-in applications, post-paid envelopes

         In its January 1998 letter to State health officials, HCFA stressed the benefits of mail-in
         applications, noting that they can reduce enrollment barriers found with in-person
         applications. Mail-in applications keep families out of the social services office, thus
         reducing transportation costs, avoiding the stigma of the welfare office and eliminating the


States’ Application and Enrollment Processes        15                                      OEI-05-98-00310
         need to miss work. In addition, HCFA noted that mail-ins increase the number of
         organizations that can help distribute applications and information to potentially eligible
         families.

         Many States currently have mail-in Medicaid applications, and all but one of the States in
         our study use it for Title XXI applications. Over half the States in our study provide
         applicants with a post-paid envelope in which to return their application. States that
         provide a post-paid envelope indicate that they do so to encourage families to return their
         applications. Several States noted that they did not want low-income applicants to put off
         getting their children insured because they did not have the money for postage.

         States not using post-paid envelopes had several reasons for this decision. One State
         reports that post-paid envelopes increase the mailing time. This State claims that the extra
         processing time required to process post-paid envelops delays receipt of applications.
         Several States indicate that the weight of required documents varied from family to family.
         This variability, in weight, makes it difficult for States to provide postage paid envelopes.
         Despite these problems, the majority of States do pay for return mail postage, and several
         other States indicate that they may begin using post-paid envelopes in their next Title XXI
         implementation phase.

         In addition to mail in applications, some States will begin processing CHIP applications
         based on information faxed to them. However, these States also require that the original
         application be sent to them also. According to our respondents, an original signature is
         required to be on file in order to have a complete CHIP application. Currently, no States
         accept Internet-based applications, as questions still remain about the security of
         information sent in this manner.

Elimination of face-to-face interviews

         Although Federal law does not require either Medicaid or CHIP applicants to undergo an
         interview, some States do require families to have one. Three States, all using Title XXI
         for Medicaid expansion programs, require an interview. For two of these States the
         interview for Title XIX and Title XXI applicants must be in person, while the third State
         allows interviews to take place by telephone as well. Administrators at these States
         indicated that their programs, including the application interviews, were shaped by their
         State legislators’ desire to ensure program integrity.

Presumptive eligibility

         Four of the 19 States interviewed for this study have presumptive eligibility policies for
         CHIP applicants. These States will pay for medical services provided to children while the
         State determines whether or not the child is eligible for CHIP or Medicaid. In two of the
         States, this “initial” or “temporary” eligibility is determined by insurers seeking to enroll


States’ Application and Enrollment Processes        16                                     OEI-05-98-00310
         children in their managed care product. To avoid over-optimistic determinations, one State
         has imposed a 3 percent limit on errors. In the other two States, all children without
         insurance are granted presumptive eligibility while their applications are processed.

         There are no requirements governing “presumptive eligibility” in the CHIP legislation.
         Each State must determine how to handle presumptive eligibility if it chooses to use it.
         According to HCFA, many States have linked the eligibility effective date to the date of
         enrollment in a health plan. States that have elected to expand their Medicaid programs
         under CHIP must comply with specific requirements set forth in Medicaid statute (Title
         XIX). Under Title XIX eligibility is effective with the date of application, or at State
         option, the first day of the month of application.

         Some State application policies may adversely affect when a child’s coverage begins under
         CHIP or Medicaid. Some States return incomplete applications without establishing a
         protective filing date that would ensure coverage effective the date of application, or the
         first day of the month of application. In some States, CHIP eligibility may not become
         effective until 45 days after an application is approved. These practices may mean that
         eligible children are uninsured when they need medical care. A few States have addressed
         this problem by assuring payment to providers who care for children during the CHIP
         application and eligibility determination process.

         There are myriad reasons why States have elected not to use presumptive eligibility in their
         CHIP program. Several States indicate that they want children to have access to a
         consistent source of care. They worry that parents of children determined presumptively
         eligibility will not follow through with a full Medicaid/CHIP determination. One State
         noted that when its Medicaid program used presumptive eligibility for pregnant women, the
         number of presumptively eligible women who followed through to enroll in Medicaid was
         very low.

         Several States indicated that they currently back-date program eligibility to the date of
         application. If a CHIP application is approved, these States will cover medical expenses
         incurred by applicants during the enrollment process. States that back-date coverage prefer
         this process to presumptive eligibility. They contend that use of the application date as the
         first day of CHIP coverage helps ensure that children can get immediate medical care while
         an application is processed. The State promises providers that they will be paid for
         services provided to an applicant child before eligibility is officially determined.

         Several States felt that presumptive eligibility was difficult and expensive to administer,
         and was not a very high priority. Several States said that they decided to streamline the
         regular application process in order to get children covered as quickly as possible. One
         other concern is that a number of States have shaped their CHIP programs to look like
         private insurance coverage, and presumptive eligibility may not fit within this model. One
         such State indicated that they want their program to look like a regular health plan, and do


States’ Application and Enrollment Processes       17                                    OEI-05-98-00310
         not want to use presumptive eligibility, which looks like welfare.

Use of enrollment contractors

         While six States do not use enrollment brokers or other contractors for any part of their
         CHIP enrollment, the other 13 contract for large and small parts of their enrollment
         process. As managed care is becoming the common mode of service delivery, many
         separate CHIP and Medicaid outreach programs use contractors to provide information to
         families choosing a health care plan or medical provider.

         Several States contract with health plans to run the program in various areas of the State.
         Two such States make the health plans responsible for outreach, enrollment and customer
         contact. The health plans must work within the rules outlined by the State plan, but have
         some flexibility to design their own enrollment forms and procedures within those
         boundaries.

         Five States have contracts with enrollment brokers to process CHIP applications and
         determine eligibility for the State’s separate Title XXI programs and the CHIP portion of
         combination plans. In some States, contractors screen children for Medicaid, forward
         potential Medicaid eligible to the State and determine Title XXI eligibility for non-
         Medicaid eligible children. In at least one State, the nonprofit entity running the health
         program screens all applications for Medicaid eligibility. This organization forwards the
         applications to State Medicaid workers or the private contractor for a final determination
         of eligibility.

         Several States use contractors for parts of the enrollment process. Four States contract out
         their customer service lines, using private groups to answer applicant questions, send out
         applications and in some cases help families fill out applications. Some States use their
         own staff to determine program eligibility but contract for data processing tasks,
         documentation verification, application pre-screening and database maintenance.
         Contractors may also send out insurance cards and information to families and collect
         premiums from them.

Elimination of some verification requirements

         Title XXI programs are not required to use asset tests in their applications, and most States
         do not. Two States that have separate CHIP programs ask for asset information. Two
         other States, both using Title XXI funds for Medicaid expansions, also have asset tests.

         To limit the amount of documentation families are required to provide, many States use
         electronic or other databases to verify applicants’ responses. Many States indicated that
         they do not want to force families to provide information the State can obtain from third
         party sources. Several States electronically access information on unemployment and


States’ Application and Enrollment Processes       18                                    OEI-05-98-00310
         earned income, as well as on social security numbers and immigration status. One State
         routinely contacts the health department for pregnancy verification. Workers in this State
         also contact the local human services department for documentation of welfare income and
         children’s ages.

         Many States allow families to self-certify application information. One State accepts all
         application statements and does not require any documentation other than on alien status.
         This State’s eligibility process includes a check of the Social Security database, State
         unemployment wage files, and unemployment compensation database. The family is only
         contacted if third party information is inconsistent with the application responses. Other
         States are reluctant to accept self-certification because they fear their error rate may
         increase and affect their Federal funding. They also worry about ensuring program
         integrity if they do not verify information.

Denial rates

         Collecting comparable data on the precise number of CHIP denials is difficult. It is difficult
         to determine the number of applicants who apply and are subsequently denied CHIP
         eligibility. Some States have no information about the number and identity of children
         whose CHIP application was returned because it was incomplete or lacked documentation.
         Several CHIP programs consider the application date to be the date the State receives a
         completed application along with all documentation.

         In several States, technical denials occur at CHIP intake sites. Workers at these intake
         sites only forward completed applications for potentially eligible applicants to the State.
         One CHIP intake site reports an application denial rate in excess of 30 percent, while the
         State reports a CHIP denial rate of less than 5 percent. States with low, or no, CHIP
         application denials may not be the most effective at enrolling children in CHIP. Their
         processes may obscure the true nature of denials.

         Intake sites that collect and process joint CHIP/Medicaid applications may fail to protect an
         applicant’s filing date by returning an incomplete application without establishing a record
         to protect the date of CHIP/Medicaid eligibility. Several States that return incomplete
         applications did not record information about applicants or the date they applied . This
         missing information could adversely affect the date a child becomes eligible for CHIP or
         Medicaid. It also distorts data on the number of CHIP applicants and the data on the
         disposition of each child’s application. Without better controls over applications,
         information about the number of children seeking CHIP coverage is unreliable. Refusing to
         accept applications that are incomplete distorts information on the number and reasons for
         denials.

         A few States do not deny applications with missing information. One State “deactivates”
         cases with missing information after 60 days. Another “dismisses,” rather than denies,


States’ Application and Enrollment Processes       19                                     OEI-05-98-00310
         applications with insufficient information or ineligible applicants. These practices may
         distort information about denials. More importantly they may obscure information as to
         the precise reason for denial that might be useful in improving the CHIP program.

         Several States engage in aggressive follow-up with families to get information missing from
         applications. In several States, State employees or contractors help families fill out
         applications. They also help families secure needed documents to establish eligibility.
         Several States accept applications that are not complete and then re-contact families to
         collect needed information or obtain the information through a third party. One State
         indicated that its low denial rate of 3.6 percent was due to active follow-up done while
         incomplete applications are pending. Several States do not require extensive
         documentation.



Citizenship Dilemmas: Barriers To Enrollment
         The Personal Responsibility and Work Opportunity Reconciliation Act of 1996
         (PRWORA) requires that all agencies administering Federal public benefits ensure that
         benefits are provided only to citizens and qualified aliens. In addition to providing benefits
         to citizens and qualified aliens, the law also provides for the emergency treatment of non-
         qualified aliens who otherwise meet Medicaid eligibility criteria. The Immigration and
         Naturalization Service (INS) has developed guidelines to assist State and local
         governments and their contractors in determining whether an alien qualifies for public
         benefits.

         When applying for Federal public benefits, applicants must declare whether they are
         citizens of the United States2. Any person who is not a citizen is considered to be an alien
         and his or her eligibility for public benefits as a qualified alien must be verified. The
         exception to this rule involves non-qualified aliens seeking emergency medical care. Non-
         qualified aliens are not required to make a such a declaration in order to get emergency
         medical care coverage.

         States verify citizenship and alien status using a variety of documents and systems. States
         can accept an applicant’s certification that they are a national (citizen) of the United States
         if no information to dispute that claim exists. When a question of citizenship or qualified
         alien status arises, the States must verify that the applicant is a qualified alien. An extensive
         list of primary and secondary evidence to establish citizenship and alien status is prescribed


          2
            We have elected to use the term citizen throughout this report. The law requires that an applicant for
public benefits declare whether he or she is a national of the United States rather than U.S. citizen because national
of the United States is a term specifically defined as a citizen of the United States, or a noncitizen owing
permanent allegiance to the United States. Non-qualified (illegal) aliens are not required to make a declaration
whether they are national of the United States to obtain emergency medical care.

States’ Application and Enrollment Processes             20                                            OEI-05-98-00310
         by INS in law. In addition to documents provided by applicants, agencies administering
         public benefits must verify alien status using INS’s Systematic Alien Verification for
         Entitlements (SAVE) system. Currently, no system exists for verifying citizenship.

The “Illegal alien” dilemma

         Illegal aliens have concerns about revealing information that might affect their applications
         for citizenship or result in their deportation. State employees and individuals helping
         families fill out applications told us that parents residing in the United States illegally were
         reluctant to complete a CHIP application for their children born in the United States.
         Children of illegal aliens born in the United States are citizens and eligible for CHIP and
         other public benefits. The siblings of these eligible children may be illegal aliens and
         ineligible for CHIP, Medicaid and other public benefit programs.

         Illegal aliens fear that the information they provide on CHIP applications about themselves
         and their children will be shared with INS. They fear that INS will use the information to
         locate and deport them. Title XXI requires that the age, social security number and
         citizenship of children seeking enrollment in the CHIP program be determined.

         In a September 10, 1998 letter to State Health Officials, HCFA clarified that title XXI does
         not, and cannot require applicants (parents, guardians and others) to disclose their social
         security number or citizen status when completing a CHIP application. States that have
         elected to expand their Medicaid program under CHIP can only require the SSN of the
         children applying for CHIP enrollment. Information about the citizenship and SSN of the
         person applying for CHIP benefits on behalf of a child is not required by Federal law.
         Moreover, HCFA policy prohibits States from taking into account the parents citizenship
         when determining a child’s CHIP eligibility.

         To determine Medicaid eligibility, all States solicit some information about a child’s parents
         on their application for benefits. States that have elected to use Title XXI (CHIP) funds to
         expand their Title XIX (Medicaid) programs also solicit information about parents. The
         CHIP legislation requires States to screen for Medicaid eligibility every child applying for
         CHIP benefits. Some States routinely screen all household/family members (parents and
         children) for Medicaid eligibility. According to outstation workers, aliens fear that States
         will share CHIP application information with INS during the screening and verification
         processes many States conduct to determine eligibility for other public benefit programs.

         The process for verifying the qualified alien status of applicants for Medicaid requires that
         States input certain information about alien applicants into SAVE or some approved
         alternative system.3 States that operate CHIP programs independent of their Medicaid


          3
          Most States use SAVE for their Medicaid program. The current law does not require States to use the
system. A proposed rule, if enacted, would make use of the SAVE system mandatory for all agencies providing

States’ Application and Enrollment Processes          21                                         OEI-05-98-00310
         program are required to use interim guidelines provided by the INS. These guidelines do
         not require the use of the SAVE system. The SAVE response provides information
         relevant to benefit eligibility. It is INS’s position that the actual determination as to
         whether an applicant meets a program’s eligibility requirements is left to the State benefit
         granting agency.

         Some States have adopted policies and practices designed to protect disclosure of
         information concerning illegal aliens. One State informs applicants that they do not need to
         disclose their social security number (SSN). This State assigns a fictitious SSN to
         applicants who do not have or refuse to provide an SSN. Other States would like to use
         private, not-for-profit agencies to execute CHIP applications on behalf of children whose
         parents are reluctant to apply because they fear immigration repercussions. Several States
         report that despite changes in the law, new application and verification requirements and
         elimination of the face-to-face interview, the number of CHIP applications from eligible
         immigrants is lower than expected especially among Spanish-speaking individuals.

         Illegal aliens fear personal information on CHIP applications will be entered into the SAVE
         system and used by INS to enforce immigration laws including removal from the United
         States. This fear is not unfounded. The INS may use SAVE information for the purpose
         of enforcing any civil and criminal violations of immigration law. By statute the INS is
         prohibited from using SAVE for administrative (non-criminal) enforcement. In December
         1997, HCFA notified the States that benefit information should not be shared with INS or
         the State Department, except in cases involving fraud and abuse.

         Conflicting HCFA and INS positions leave States, intake workers and applicants uncertain
         as to whether information on CHIP applications will or will not be used to enforce
         immigration laws. Despite HCFA’s assurances to the contrary, States and intake workers
         report that noncitizens believe information collected on CHIP and Medicaid applications
         might be used to enforce immigration laws at some time in the future. The HCFA’s
         position is that Medicaid agencies are not required to report illegal aliens to the INS.
         However, a State Medicaid or CHIP agency may, if it chooses, report illegal aliens to INS.
         Statutes acknowledge that no law can prohibit a State (including Medicaid State Agencies)
         or locality from reporting Illegal aliens to INS.

         Illegal aliens are reluctant to apply for CHIP for their eligible children. They fear that INS
         may use the information to locate and possibly deport them. Though statutes appear to
         limit INS's use of SAVE information, our respondents indicate that illegal aliens fear the
         information will find its way to the INS either through the SAVE system or through direct
         referral to INS by a State agency.

         Respondents told us that until INS and HCFA issue a joint statement that CHIP and


Federal public benefits within 2 years of the rules final enactment.

States’ Application and Enrollment Processes              22                               OEI-05-98-00310
         Medicaid applications will not be used to enforce immigration laws, parents and guardians
         in the United States illegally will be reluctant to enroll their eligible children in CHIP. The
         absence of a clear and uniform policy statement from HCFA, the States and INS as to their
         use of application information deters people from enrolling in the CHIP program.
         Immigrant parents fear that the information they provide will help the INS identify them or
         one of their children or other family member as an illegal alien.

The “public charge” dilemma

         Eligible aliens are reluctant to complete a CHIP application because they fear, or have
         misunderstandings related to, public charge requirements under immigration laws. Many
         aliens fear that the use of any government services (including Medicaid and CHIP) would
         threaten their request for permanent residence status. State CHIP program administrators
         and individuals working with families of CHIP eligible children told us that qualified aliens
         fear that their children’s receipt of CHIP or Medicaid will adversely affect application for
         citizenship.

         Qualified aliens fear that they will be denied citizenship if INS determines that the public
         charge provision of the Title V, Illegal Immigration Reform and Immigrant Responsibility
         Act of 1996 (Public Law 104-208) has been violated. They also fear that they will have to
         pay back the entire cost of their children’s health insurance if they ever apply for
         citizenship.

         States and intake workers reported that noncitizen parents felt the law and regulations did
         not explicitly state that the CHIP application they executed on behalf of their children did
         not fall under public charge provisions of the Immigration Act. The INS, which has
         jurisdiction over these matters, has not issued an official statement or policy guidance on
         public charge determinations. When INS does issue policy guidance on public charge
         determinations, HCFA plans to notify the States as to how the INS policy affects CHIP or
         Medicaid recipients.



Multiple Program Rules
         States expressed concern about the Federal push for States to develop a single application
         for Medicaid, CHIP and other public benefit programs such as food stamps and the WIC
         program. States find that creation of a single application for multiple public benefit
         programs is impeded by the different requirements each program has in place.

         Conflicting application and verification requirements pose a processing problem for States.
         Federal Medicaid and CHIP statutes allow States considerable latitude in how they
         implement these programs. The HCFA’s August 10, 1998 letter to State health officials,
         advises States that they must verify the alien status for Medicaid and CHIP applicants.

States’ Application and Enrollment Processes        23                                     OEI-05-98-00310
         Beyond that requirement, States can decide what information to collect and can choose
         what and how they will verify information.

         Some States allow families to apply for CHIP at local Medicaid and social services offices.
         Intake workers, familiar with Medicaid and other public benefit programs, may be resistant
         to changes in application processes. Some States expressed concern that front-line
         workers continue to require CHIP applicants to use the old, more burdensome application
         processes.

         State efforts to streamline the application and enrollment processes for public benefit
         programs, including Medicaid and CHIP, are hindered by different Federal program
         requirements. While States have considerable latitude to decide what information will be
         collected and what information on applications will be verified, they are concerned that
         different definitions and standards for verification used by different Federal public benefit
         programs will affect their error rate.

         States mentioned the following Federal requirements as causing problems:

          <	        Income verification. The HCFA told the States that they have considerable
                    latitude to decide if they will verify income of applicants for CHIP and Medicaid.
                    Section 1320b-7 of 42 U.S.C. appears to require all States to have in effect and
                    use an income and eligibility verification system for Medicaid, food stamps and
                    other public benefits. To use IEVS, States must obtain the social security numbers
                    of the children’s parents and other adult members whose income will be considered
                    in determining eligibility. It is HCFA’s position that the SSN of parents and other
                    adult household/family members is not required for CHIP.

          <	        Household/family composition. States told us that conflicting rules for
                    determining household/family composition impede the development of a single
                    application for CHIP, Medicaid and other public benefit programs. In one State,
                    the family unit for CHIP includes every person living in the household/family.
                    Medicaid only counts persons living in the household/family that have a legal
                    relationship.

          <	        Household/family income. Some State CHIP programs count the incomes of
                    all persons living in the household/family. Under Medicaid rules, States may only
                    consider the income of a parent or a spouse living in the household/family.

          <	        Child support. States that have elected to establish a separate CHIP program
                    are unsure as to circumstances, if any, that would require them to make a referral
                    to Child Support Enforcement. Some public benefit programs including Medicaid
                    require States to pursue the establishment of paternity and child support. Failure
                    to pursue child support can result in a denial of benefits.


States’ Application and Enrollment Processes        24                                     OEI-05-98-00310
          <	        Disclosure of Information. Each Federal public benefit program has its own
                    rules concerning disclosure of information. Title XIX permits disclosure only for
                    Title XIX purposes. The Food Stamp program requires that the applicant know to
                    whom information is disclosed and for what purpose.

         States expressed interest in establishing an interagency workgroup to address these
         conflicting Federal policies. The purpose of the workgroup would be to examine the
         different program requirements of Federal public benefit programs. The workgroup would,
         to the extent possible, recommend changes in agency policies that would reduce or
         eliminate the variations cited above and other conflicting requirements.

         States are apprehensive about developing joint applications and uniform verification
         procedures when Federal laws governing the public benefit programs they administer
         appear to conflict.




States’ Application and Enrollment Processes        25                                   OEI-05-98-00310
                              RECOMMENDATIONS


Readability Of Application Forms
         We recommend that HCFA work with States to improve the readability of CHIP
         applications. The high reading level of some CHIP applications can dissuade prospective
         applicants from applying. Language complexity may lead other applicants to incorrectly fill
         out forms, which may have an impact on whether applications for health care coverage are
         accepted or denied. Reducing language complexity and reading level on CHIP applications
         can improve access to available services.



Simplification Efforts
         We recommend that HCFA continue to encourage States to simplify their application and

         enrollment processes for CHIP and Medicaid. State efforts to simplify application and

         enrollment processes are showing encouraging results in several States, however, a

         successful practice in one State may have different results in another. It is too early in the

         CHIP program to determine the effectiveness of State changes to application and

         enrollment processes.


         We encourage HCFA to continue to support State efforts to:


         <          Reduce application length;

         <          Use joint Medicaid/CHIP applications;

         <          Use multi-program applications;

         <          Print applications in Spanish or other languages;

         <          Distribute applications at multiple sites;

         <          Utilize toll-free telephone lines to provide information;

         <          Provide assistance with the application process;

         <          Increase the use of outstation and application collection sites;

         <          Utilize mail-in applications and post-paid envelopes;

         <          Eliminate face-to-face interviews.


         We also encourage HCFA to continue helping States investigate the following practices:


         <          Contracting with enrollment brokers;

         <          Eliminating some verification requirements.


         Under Medicaid, eligibility is effective with the date of application or, at State option, the


States’ Application and Enrollment Processes          26                                    OEI-05-98-00310
         first day of the month of application. There is no requirement in the CHIP legislation that
         governs the effective date of CHIP eligibility. States can decide what the effective date of
         coverage will be under CHIP. We recommend that HCFA encourage States with separate
         CHIP programs to adopt CHIP eligibility policies that parallel their Medicaid policies. We
         also recommend that HCFA encourage States to either utilize presumptive eligibility or
         back-date coverage for eligible children from the date of application.



Citizenship Issues
         We recommend that HCFA work with INS to encourage INS’s development of clear
         guidance and policy statements on how applications for CHIP and Medicaid will impact
         noncitizens. Qualified aliens, concerned about “public charge” issues, should know
         whether using the CHIP benefit will affect their citizenship. Illegal aliens should know if
         the information they provide on CHIP applications for their citizen children will be used to
         enforce immigration laws.

         We recommend that HCFA work with the INS to develop a joint policy as to whether INS
         will use SAVE system information about CHIP applicant children to find and prosecute
         parents and siblings residing illegally in the United States. Illegal aliens should know if the
         information they provide on CHIP applications for their citizen children will be used to
         enforce immigration laws. While HCFA and INS have indicated that information from the
         SAVE system will not be used to find and prosecute illegal residents, the American public
         needs a clear and public joint, written statement on this issue.



Uniformity Of Program Requirements
         We recognize that program rules often differ due the exigencies of running each program.
         We realize that amending program rules can be a difficult process. Several groups have
         been formed to look into the problem of conflicting program rules, not all of which have
         been successful. Despite this, there may be places of agreement between programs which
         can allow rule changes to bring programs into closer alignment.

         We recommend that an interagency task force be formed to address conflicting public
         benefit application requirements. We recommend that this interagency workgroup develop
         uniform policies for verifying income, using the Income Eligibility Verification System,
         determining household/family composition, defining countable income, counting child
         support and disclosing information. Where necessary, agencies should seek statutory
         change to permit uniformity across programs. Taking first steps on this project will be a
         useful endeavor and may particularly benefit States wishing to use multi-program
         applications for their child health insurance and other benefit programs.


States’ Application and Enrollment Processes        27                                     OEI-05-98-00310
                              AGENCY COMMENTS

We would like to thank HCFA, the Health Resources and Services Administration (HRSA) and
the Assistant Secretary for Management and Budget (ASMB) for commenting on the draft of this
report. Based on comments we received from HCFA and ASMB some wording changes and
clarifications were made to the report.

The HCFA concurred with our findings and recommendations. They highlighted their ongoing
efforts in the areas we discussed in the report. The HRSA found the draft report to be acceptable
and had no comments. The full text of HCFA’s and ASMB’s comments on the draft report, along
with HRSA’s response, can be found in Appendices A, B and C.




States’ Application and Enrollment Processes   28                                   OEI-05-98-00310
                                                                                 APPENDIX A


                            Health Care Financing Administration 

                               Comments on the Draft Report

DATE:               APR 2 7 1999

TO:	                June Gibbs Brown
                    Inspector General

FROM:	              Nancy-Ann Min DeParle
                    Administrator

SUBJECT:	 Office of Inspector General (OIG) Draft Report: “The Children's Health Insurance
          Program: State Application and Enrollment Process: An Early Report from the
          Front Lines,” (OEI-05-98-003 10)

We appreciate OIG's efforts to help the Health Care Financing Administration (HCFA) identify
promising practices, barriers, and issues related to the application and enrollment procedures of
the Children's Health Insurance Program (CHIP). We support the recommendations in this draft
report, especially those that will make the application process easier and more user friendly for
potential beneficiaries.

HCFA has been providing technical assistance to states in order to simplify enrollment
procedures. We are encouraged to see in the findings that States are following this advice and
simplifying their application and enrollment processes. In a letter to State Health Officials issued
on January 23, 1998, we described options for successful outreach and enrollment and provided
examples of such activities, such as out-stationing sites for filing applications, use of mail-in
applications, joint applications for both CHIP and Medicaid, and presumptive eligibility. In a
second letter issued on September 10, 1998, we highlighted the flexibility States have to simplify
the application and enrollment processes. In that same letter, we clarified two eligibility-related
issues that were seen as barriers to enrollment. States were advised that a child's eligibility for
Medicaid or CHIP is not contingent on disclosure of parents' Social Security Number (or lack
thereof) or on information about non-applicant parents' immigration status.

Additionally, a multitude of other initiatives are underway to promote successful implementation
of CHIP. The following describes some examples which illustrate Federal support for State
outreach programs.

‚	        Continuing the Outreach Campaign. The national campaign initiative between the
          National Governor's Association and the White House which includes a national toll-free

States’ Application and Enrollment Processes     29                                     OEI-05-98-00310
                                                                                   APPENDIX A


          telephone number (1-877-KIDS-NOW) to provide information to potential enrollees and a
          series of radio ads in both English and Spanish.

‚	        Providing Technical Assistance. HCFA and Health Resources and Services
          Administration recently completed a series of Technical Advisory Panels (TAPs) involving
          twenty States. The purpose of these sessions was to: (1) provide a forum for exchange of
          experiences with the development and implementation of outreach strategies, (2) establish
          partnerships for outreach between States and the Federal government and (3) develop
          strategies for involving the private and voluntary agencies in outreach programs.

‚	        Publishing Useful Information. Federal support for State outreach is the lead being taken
          by HCFA in developing a Technical Assistance Guide that describes for State Medicaid
          agencies and partners the latest information on “how to” provide appropriate information
          to consumers in an easy to understand format. This guide will address issues related to
          cultural sensitivity and will include information on methods of material distribution and use
          of the media, among other topics, and will be available in the Fall of 1999.

Our detailed comments on the report recommendations follow.


OIG Recommendation #1

HCFA should work with States to improve the readability of CHIP enrollment applications.


HCFA Response

We concur. By reducing language complexity and reading level on CHIP applications, States can

improve access to available services. HCFA will continue to bring this concern to the attention of

States and will offer technical assistance to States on improving the readability of application

forms.


OIG Recommendation #2

HCFA should continue to encourage States to simplify their application and enrollment processes

for CHIP and Medicaid.


HCFA Response

We concur. We will continue to encourage States to simplify their application processes, and

promote successful examples of simplification procedures and action States have already taken. 

We have released a model application form that States can use to see how easy it is to have a

simple application. We have also released a guide book titled, “Working Families” that discusses

the importance of a simple application.




States’ Application and Enrollment Processes       30                                     OEI-05-98-00310
                                                                                  APPENDIX A


OIG Recommendation #3

HCFA should encourage States with separate CHIP eligibility policies that parallel their Medicaid

policies. We also recommend that HCFA encourage States to presume eligibility of all children

effective with the date of application.


HCFA Response

We concur. States should be encouraged to adopt CHIP eligibility policies that parallel their

Medicaid policies which make eligibility effective either with the date of application or the first

day of the month of application. Since there is no requirement under Title XXI for retroactive

eligibility, as there is under Medicaid, States have flexibility. It should be noted that many States

have linked the eligibility effective date to the date of enrollment in a health plan.


OIG Recommendation #4

HCFA should work with Immigration and Naturalization Service (INS) to develop clear guidance

and policy statements on how applications for CHIP and Medicaid will impact noncitizens.


HCFA Response

We concur. We have taken the initiative to work with INS to develop and release the much

needed policy guidance regarding the “public charge” issue. However, the recommendation

seems to imply that HCFA is responsible for public charge policy. As was discussed in the body

of the report, it is the INS of the Department of Justice which has jurisdiction over public charge

determinations and policy guidance. INS is, however, consulting with the Department of Health

and Human Services about its views on this issue. Once such policy guidance is issued by the

INS, HCFA plans to notify the States as to how the receipt of Medicaid or CHIP benefits relates

to the determination of public charge.


OIG Recommendation #5

HCFA should work with the INS to develop a joint policy as to whether INS will use the

Systematic Alien Verification for Entitlements (SAVE) system information about CHIP applicant

children to find and prosecute parents and siblings residing illegally in the United States.


HCFA Response

We will consult with the INS on this, but it is our understanding that their policy already prohibits

the use of SAVE for administrative (non-criminal) immigration enforcement purposes, i.e., to

deport people. The proposed INS rules pertaining to Verification of Eligibility for Public

Benefits, published on August 4, 1998, in the Federal Register, contain an entire subpart (Subpart

C) which addresses the SAVE system. Specifically, Section 104.51 states that the INS cannot use
the information in the SAVE system for administrative (non-criminal) immigration enforcement
purposes. Such information may, however, be used for the purpose of enforcing any provision of
criminal law. Additionally, we have clarified through a representative of the INS that receiving a

States’ Application and Enrollment Processes      31                                      OEI-05-98-00310
                                                                                  APPENDIX A


“no match” through the SAVE system does not necessarily imply that an alien is in an illegal

status.


OIG Recommendation #6

We recommend formation of an interagency task force to address conflicting public benefit

application requirements. We recommend that this interagency workgroup develop uniform

policies for verifying income, using the Income Eligibility Verification System, determining

household/family composition, defining countable income, counting child support, and disclosing

information.


HCFA Response

We concur. We support the establishment of an interagency task force to address conflicting

public benefit application requirements. Greater uniformity in various program rules can be

beneficial to the administration of the programs as well as to beneficiaries. Complete uniformity

across all programs, however, may not be possible due to the differences in statutory requirements

of such programs as Medicaid, Food Stamps, and SSI.


Technical Comments

Pg. 1, paragraph 4: In the last sentence add at the end “and have more flexibility on the benefit

package.”


Pg. 2, first line: After “. . . the law prohibits States,” please add “from receiving enhanced match if
they tighten . . .” Delete “. . . from tightening the . . .”

Pg. 6, paragraph 2: It would be better to have one paragraph devoted to the advantages and
another to the disadvantages. The first sentence might be stronger if it were reworded: “Using a
joint Medicaid/CHIP application can simplify the application process for families because they
only have to complete one application and the families do not have to determine which program
their children may be eligible for.” The second sentence of this paragraph should be rewritten as
follows: “Joint applications ensure the enrollment of CHIP applicants in Medicaid if they qualify
for that program.”

Pg. 7, paragraph 7: Please verify that the number 71 is correct? It seems very high.

Pg. 12, paragraph 3: In the third sentence, substitute “statute” for “legislation.”

Pg. 12, paragraph 5: The State reports that the number of presumptively eligible women who are
determined eligible is very low. This seems at odds with other reports that the vast majority of
women are found eligible.


States’ Application and Enrollment Processes      32                                      OEI-05-98-00310
                                                                                APPENDIX A


Pg. 12, last paragraph: The last sentence does not appear to be correct. It says that States prefer
backdating the program eligibility to the date of application because it ensures that eligible
children get immediate medical care. If the children are not eligible until determination, this
would not help them get care in the short run. They would still have to pay out of pocket for any
services initially received.

Pg. 16, second paragraph: Please add at the beginning of the 4th sentence: “In a letter to State
Health Officials on September 10, 1998, HCFA clarified that ...”

Pg. 17, third paragraph: The conflicting positions of HCFA and INS are never specified. It only
mentions HCFA policies.

Pg. 19, first full paragraph: It would make sense if the work group were interagency.

Simplification Efforts, as continued at top of page 21: The last sentence should be clarified. Does
the report mean that HCFA should encourage States to adopt “presumptive eligibility” in separate
State CHIP programs? Does the report mean that States should presume all children who apply
are eligible until a final CHIP determination? Does the report mean that anyone taking the CHIP
applications should determine children presumptively eligible?




States’ Application and Enrollment Processes     33                                     OEI-05-98-00310
                                                                                APPENDIX B

                    Health Resources and Services Administration 

                           Comments on the Draft Report

TO:                      Inspector General

FROM:                    Deputy Administrator

SUBJECT:	                OIG Draft Report, "THE CHILDREN'S HEATH INSURANCE PROGRAM -
                         State Application and Enrollment Processes: An Early Report from the Front
                         Lines," Issued February 2, 1999

We have reviewed the subject report and find it to be acceptable. HRSA has no comments on this
report.




States’ Application and Enrollment Processes        34                                 OEI-05-98-00310
                                                                                       APPENDIX C

                   Assistant Secretary for Management and Budget

                            Comments on the Draft Report

MEMORANDUM TO:                                 June Gibbs Brown
                                               Inspector General

                     FROM:	                    John J. Callahan
                                               Assistant Secretary for Management and Budget

                SUBJECT: 	                     Comments on OIG Draft Report: “The Children's Health
                                               Insurance Program - State Application and Enrollment
                                               Processes: An Early Report from the Front Lines”

Thank you for the opportunity to review the draft report entitled “The Children's Health Insurance
Program (CHIP) - State Application and Enrollment Processes: An Early Report from the Front
Lines” (OEI-05-98-00310). We would like to offer the following comments:

C	        The use of simplified application forms has been cited by the Department as a form of
          outreach. Since the Department has no authority to require the states to undertake any of
          the activities described in the report, it should be clearly stated that any state activity
          related to outreach is done at state option.

C	        On page 1, Background section -The report cites the number of uninsured children, but
          does not cite a source. Given that there is more than one way to count numbers of
          uninsured children and given that there is more than one set of published numbers, it may
          be useful to cite a source or use a range of numbers rather than a discrete number.

C	        On page 13, Use of enrollment contractors - The language in the first paragraph which
          describes the use of enrollment contractors in assisting eligible families in choosing a
          health care plan, may not be consistent with department policy. Policies differ depending
          on if the state is implementing a CHIP Medicaid expansion or if the state is developing a
          separate state plan. In Medicaid, while enrollment contractors may assist in application
          completion, I understand that they are prohibited from determining eligibility or directing
          beneficiaries to enroll in health plans.

          In separate CHIP plans, assisting enrollment in health plans may be acceptable if these
          contractors are truly independent from the health plans and if there is no financial
          incentive. While this is implicitly discussed, we believe a more explicit explanation would
          be useful.


States’ Application and Enrollment Processes                35                                 OEI-05-98-00310
